CERTIFICATE OF SERVICE
NO. TBD
Hankins et al.
Petitioner(s)
v.
Seifman et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the HANKINS
by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:

ET AL. PETITION FOR WRIT OF CERTIORARI,

David W. Warren
Joelson Rosenberg PLC
30665 Northwestern Hwy
Suite 200
Farmington Hills, MI 48334
(248) 855 2233
dwarren@jrlawplc.com
Counsel for Barry Seifman et al.
3. Furthermore, on the undersigned date, per Supreme Court Rule 12.6, I served the party
below with notice of counsel for petitioner that they are not a party to the petition:
Michael D. Crow
Crow Law Firm
16842 Kercheval Avenue
Grosse Pointe, MI 48230
313-925-2999
mike@thecrowfirm.com
Counsel for City of Inkster and Gregory Gaskin

Lucas DeDeus

August 22, 2019
SCP Tracking: Coogan-4146 Oakwood Blvd.-Cover White

Lawrence J. Coogan
Law Office of Lawrence J. Coogan
4146 Oakwood Blvd.
Melvindale, MI 48122
(313) 381-0044
lawrencejcooganlaw@yahoo.com
August 22, 2019
Michael D. Crow
Crow Law Firm
16842 Kercheval Avenue
Grosse Pointe, MI 48230
313-925-2999
mike@thecrowfirm.com
Re: Notice Under Sup. Ct. Rule 12.6
Dear Mr. Crow,
Please take notice that on August 22, 2019, John P. Hankins, Raymond Guzall III and the Law
Offices of Raymond Guzall III filed a petition for writ of certiorari to review the decision of the
United States Court of Appeals for the Sixth Circuit in Case # 18-1645. Although your clients
City of Inkster and Gregory Gaskin were parties in the district court proceedings, you were not a
party in appellate proceedings. We have noticed the Clerk of the Court for the Supreme Court of
the United States that you are not a party to the petition per Sup. Ct. Rule 12.6.

/s/ Lawrence J. Coogan

